Audit Report




OIG-11-053
Management Letter for the Audit of the Office of Thrift
Supervision’s Fiscal Years 2010 and 2009 Financial Statements

December 17, 2010




Office of
Inspector General
Department of the Treasury
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                            December 17, 2010


            MEMORANDUM FOR JOHN E. BOWMAN, ACTING DIRECTOR
                           OFFICE OF THRIFT SUPERVISION

            FROM:                 Michael Fitzgerald
                                  Director, Financial Audits

            SUBJECT:              Management Letter for the Audit of the
                                  Office of Thrift Supervision’s Fiscal Years
                                  2010 and 2009 Financial Statements


            I am pleased to transmit the attached management letter in connection with the
            audit of the Office of Thrift Supervision’s (OTS) fiscal years 2010 and 2009 financial
            statements. Under a contract monitored by the Office of Inspector General, Lani Eko
            & Company, CPAs, PLLC (Lani Eko), an independent certified public accounting firm,
            performed an audit of the financial statements of OTS as of September 30, 2010
            and 2009, and for the years then ended. The contract required that the audit be
            performed in accordance with generally accepted government auditing standards;
            applicable provisions of Office of Management and Budget Bulletin No. 07-04, Audit
            Requirements for Federal Financial Statements, as amended; and the GAO/PCIE
            Financial Audit Manual.

            As part of its audit, Lani Eko issued and is responsible for the accompanying
            management letter that discusses a matter involving internal control and its
            operation that was identified during the audit but was not required to be included in
            the auditor’s reports.

            In connection with the contract, we reviewed Lani Eko’s letter and related
            documentation and inquired of its representatives. Our review disclosed no instances
            where Lani Eko did not comply, in all material respects, with generally accepted
            government auditing standards.

            Should you have any questions, please contact me at (202) 927-5789, or a member
            of your staff may contact Mark S. Levitt, Manager, Financial Audits at
            (202) 927-5076.

            Attachment
              2010
Comment on Internal Control and Other
              Matters




      Office of Thrift
       Supervision
                 INDEPENDENT AUDITOR’S MANAGEMENT LETTER

To the Inspector General

U.S. Department of the Treasury

We have audited the financial statements of the U.S. Department of the Treasury, Office of
Thrift Supervision (OTS) as of and for the years ended September 30, 2010 and 2009. In
planning and performing our audit, we considered the OTS’ internal control over financial
reporting as a basis for designing our auditing procedures, obtained an understanding of the
design effectiveness of internal controls, determined whether the internal controls have been
placed in operation, assessed control risk, and performed tests of the OTS’ internal controls for
the purpose of expressing our opinion on the financial statements, but not for the purpose of
expressing an opinion on the effectiveness of the OTS’ internal control over financial reporting.

We noted a matter involving internal control that is presented in the attachment to this letter for
your consideration. The finding and recommendation, which have been discussed with the
appropriate members of management, are intended to improve the OTS’ internal control or result
in other operating efficiencies.

This report is intended solely for the information and use of the Inspector General of the U.S.
Department of the Treasury, the management of the OTS, the OMB, the Government
Accountability Office and Congress and is not intended to be and should not be used by anyone
other than these specified parties.




October 29, 2010

Alexandria, Virginia
Attachment


                                     Office of Thrift Supervision

                                   Comment and Recommendation



Travel Expense Authorization



CONDITION

During our testing of disbursements, we noted two instances of travel vouchers not being
properly authorized by approving officials. The travels occurred in FY 2009; however the
disbursements were made in FY 2010. In FY 2009, OTS policy did not require management
review and approval of employees travel vouchers. OTS has modified its policy and now
requires management review and approval of travel vouchers.

In addition, we noted one instance where an employee travel voucher was not properly
supported.

CAUSE

During FY 2009, OTS management eliminated the requirement that OTS managers review or
approve travel vouchers. In addition, OTS management did not properly enforce its travel policy.

CRITERIA

Government Accountability Office’s (GAO) Standards for Internal Control in the Federal
Government states that control activities occur at all levels and functions of the entity. They
include a wide range of diverse activities such as approvals, authorizations, verifications,
reconciliations, performance reviews, maintenance of security, and the creation and maintenance
of related records which provide evidence of execution of these activities as well as appropriate
documentation.

EFFECT

Without proper OTS management oversight of travel expense reimbursements, OTS is
susceptible to risk of fraud, waste and/or abuse.

RECOMMENDATION

We recommend that OTS follow its policies and procedures and adhere, as appropriate, to the
internal control criteria established by GAO to ensure proper oversight of the employee travel
expense payment and reimbursement process.
Attachment


MANAGEMENT RESPONSE

OTS management concurs with findings and recommendation. Beginning in fiscal year 2010
Management implemented new policies and procedures requiring OTS managers review and
approval of all travel vouchers. As an integral part of internal control OTS management supports
the adherence to current travel policies and procedures.
